   February 24, 2006




Financial Management

DoD Process for Reporting
Contingent Legal Liabilities
(D-2006-054)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

ABA                   American Bar Association
DFAS                  Defense Finance and Accounting Service
GAO                   Government Accountability Office
OMB                   Office of Management and Budget
SFFAS                 Statement of Federal Financial Accounting Standards
USACE                 U.S. Army Corps of Engineers
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704



                                                                        February 24,2006
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               GENERAL COUNSEL OF THE DEPARTMENT OF
                 DEFENSE
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on the DoD Process for Reporting Contingent Legal Liabilities
         (Report No. D-2006-054)

        We are providing this report for review and comment. We performed the audit as
part of our continuing audit work in support of the Chief Financial Officers Act of 1990,
as amended by the Federal Financial Management Act of 1994. We considered
management comments on the draft of this report when preparing the final report. The
complete text of the comments is in the Management Comments section of the report.
        Comments from the Army, Air Force, and U.S. Army Corps of Engineers were
generally responsive. Comments from the DoD Deputy Chief Financial Officer were also
generally responsive, except for Recommendation 1. Comments by the DoD Deputy
General Counsel (Fiscal) and the Navy were not responsive. DoD Directive 7650.3
requires that all issues be resolved promptly. Because this audit supports our annual.
audits of the DoD and its major Components' financial statements, it is important to
realize that failure to address the concerns discussed in this report may prevent DoD from
obtaining a favorable audit opinion in the future. We request that the Under Secretary of
Defense (Comptroller)/Chief Financial Officer take the lead in implementing
Recommendation 1 and provide additional comments to the final report by March 24,
2006, on how she plans to implement this recommendation. We have decided not to
request additional comments from the Navy. As part of our annual audits, we will
address specific material deficiencies related to contingent legal liabilities in the Navy
and other DoD Components' financial statements.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of management comments must contain
the actual signature of the authorizing official. We cannot accept the / Signed / symbol in
place of the actual signature. We appreciate the courtesies extended to the staff.
Questions should be directed to Mr. Marvin L. Peek at (703) 325-5777 @SN 221-5777)
or Mr. Scott S. Brittingham at (703) 325-6104 (DSN 221-6104). See Appendix D for the
report distribution. The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:


                                         Paul Y~ranetto,CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                 Service
                Department of Defense Office of Inspector General
Report No. D-2006-054                                                      February 24, 2006
   (Project No. D2004-D000FA-0202.000)

           DoD Process for Reporting Contingent Legal Liabilities

                                  Executive Summary

Who Should Read This Report and Why? Personnel within the Office of the Secretary
of Defense, other DoD Components responsible for preparing the annual financial
statements, and legal counsel who provide legal representations regarding contingent
liabilities should read this report. It identifies areas where DoD and its Components have
not fully complied with Federal financial accounting standards and are not consistent in
computing and disclosing contingent legal liabilities. The report is intended to convey
systemic concerns across DoD and to provide DoD management and legal counsel the
basis for developing policies and procedures for reporting and disclosing contingent legal
liabilities in accordance with Federal financial accounting and reporting requirements.
Background. We performed the audit as part of our continuing audit work in support of
the Chief Financial Officers Act of 1990, as amended by the Federal Financial
Management Act of 1994. Auditing standards require auditors to obtain information
from management, supported by legal counsel, regarding pending or threatened litigation
and unasserted claims and assessments that could result in a potential loss material to the
financial statements. The Government Accountability Office, which audits the U.S.
Government’s consolidated financial statements, expressed concern that DoD is not
providing the required evidential matter to support statements it is making about pending
or threatened litigation, possible claims, and assessments against the Government in DoD
financial statements.

Results. The DoD process for evaluating pending litigation, claims, and assessments,
and reporting contingent legal liabilities does not sufficiently satisfy the intent of Federal
financial accounting and reporting requirements. Specifically:
   •   Legal representation letters did not provide meaningful assessments or support
       accruals and disclosures in the financial statements for the DoD Components;

   •   DoD Components did not report contingent legal liabilities in a consistent
       manner; and

   •   DoD Components did not assess and disclose the effects of uncertainties on the
       financial statements when legal counsel was unable to determine the likelihood of
       loss.

In addition, DoD did not report on immaterial cases that, in aggregate, exceeded
established materiality thresholds. As a result, DoD representations do not contain
sufficient evidence to assess the validity of the presentation or disclosure of legal loss
contingencies on the financial statements. DoD needs to develop solutions and uniform
methodology to ensure that it provides meaningful and supported assessments of all
contingent legal liabilities for presentation on its financial statements, as appropriate. If
the risks and uncertainties for contingent legal liabilities are not adequately assessed,
supported, and disclosed on the financial statements, DoD (and perhaps the Federal
Government) will not be able to receive a favorable opinion on future financial
statements. (See the Finding section for the detailed recommendations.)

Management Comments and Audit Response. The DoD Deputy Chief Financial
Officer and DoD Deputy General Counsel (Fiscal) partially concurred with the
recommendation to establish a forum, with involvement by financial management and
legal counsel, to develop solutions and uniform methods amicable to all parties so that
DoD and its major Components fully satisfy the intent of Federal financial accounting
and reporting requirements for contingent legal liabilities. The DoD Deputy General
Counsel (Fiscal) nonconcurred with the recommendation to develop uniform estimating
and aggregating methodology. The DoD Deputy Chief Financial Officer partially
concurred with the recommendation to revise the DoD Financial Management Regulation
to ensure consistent application of requirements across the DoD and consistent disclosure
of all contingent legal liabilities considered material to financial statements. Comments
by the DoD Deputy Chief Financial Officer concerning revising the regulation are
responsive. All other comments by the Deputies are not responsive.

The Deputies appeared to be more interested in standardized reporting across the Federal
Government than in addressing the issues identified by the report that are specific to
DoD. We also are interested in more uniformity within the Federal Government
regarding evaluation and disclosure of material contingent legal liabilities. However, as
the auditors of the DoD financial statements, it is our responsibility to evaluate the
support for those statements and their adherence to Federal financial accounting
standards. Because the Chief Financial Officer has the responsibility to ensure that DoD
follows Federal financial accounting standards, we have revised Recommendation 1 to
make the Under Secretary of Defense (Comptroller)/Chief Financial Officer the lead for
implementing the recommendation. We request that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer provide additional comments that address the
means her office will use to develop DoD solutions for providing assessments in
accordance with Statement of Federal Financial Accounting Standards No. 5,
“Accounting for Liabilities of the Federal Government,” as amended. The comments
should also address how DoD will develop and implement a uniform methodology for
estimating, aggregating, and reporting contingent legal liabilities. We request that the
Under Secretary of Defense (Comptroller)/Chief Financial Officer provide the comments
by March 24, 2006.

The DoD Deputy Chief Financial Officer, Army, Navy, Air Force, and U.S. Army Corps
of Engineers concurred with the recommendation to ensure accruals and disclosures of
contingent legal liabilities are fully supported and agree with legal representations. The
DoD Deputy Chief Financial Officer, Army, Air Force, and U.S. Army Corps of
Engineers concurred and the Navy nonconcurred with the recommendation to review,
approve, and disclose estimation methodologies. The U.S. Army Corps of Engineers
concurred, the DoD Deputy Chief Financial Officer and Army partially concurred, and
the Navy and Air Force nonconcurred with the recommendation to disclose the dollar
value of claims in which legal counsel was “unable to express an opinion” concerning
case outcome or estimate of liability if such claims are material to the financial
statements.

Although not required to comment, the DoD Deputy General Counsel (Fiscal) did not
believe that all information in financial statement footnotes must be in legal
representation letters. He indicated that other information not in legal representation
letters could be disclosed in footnotes if such information is distinguished from legal

                                              ii
letter information. He also indicated no obstacle to presenting information developed
from estimation methodologies or related to legal uncertainties if made clear that the
information was not based on attorney evaluations. However, he questioned the utility of
such information. Comments from the Army and U.S. Army Corps of Engineers are
responsive. Although the Air Force nonconcurred, we consider its comments responsive
because the Air Force uses a methodology to estimate potential losses resulting from
contingent legal liabilities. Comments by the DoD Deputy Chief Financial Officer are
partially responsive, and comments by the Navy are not responsive.

We do not believe that the Navy fully considered the magnitude of potential legal claims
in making accrual and disclosure determinations for contingent legal liabilities. Further,
it is not clear whether the Office of the Under Secretary of Defense (Comptroller) or
Navy will determine whether legal uncertainties in which legal counsel was “unable to
express an opinion” have a material affect on the financial statements and should be
disclosed. However, because review of contingent legal liabilities is part of our annual
audit of the annual financial statements for DoD and its major Components, we have
decided not to request additional comments from the Under Secretary of Defense
(Comptroller)/Chief Financial Officer or the Navy. We will continue to work with DoD
and the Navy as well as all DoD Components to ensure contingent legal liabilities are
appropriately disclosed in the financial statements.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            iii
Table of Contents

Executive Summary                                               i

Background                                                     1

Objectives                                                     2

Management Control Program Review                              2

Finding
     Reporting and Support for Contingent Legal Liabilities     3

Appendixes
     A. Scope and Methodology                                  27
     B. Prior Coverage                                         29
     C. Reliance on Legal Guidelines on Reporting Contingent
           Legal Liabilities                                   31
     D. Report Distribution                                    35

Management Comments
     Office of Under Secretary of Defense (Comptroller)        37
     DoD Office of General Counsel                             40
     Department of the Army                                    51
     Department of the Navy                                    53
     Department of the Air Force                               58
     U.S. Army Corps of Engineers                              60
Background
    We performed the audit as part of our continuing audit work in support of the
    Chief Financial Officers Act of 1990, as amended by the Federal Financial
    Management Act of 1994. The Government Accountability Office (GAO), as the
    responsible auditors for U.S. Government’s Consolidated Financial Statements,
    expressed concern about the adequacy of DoD legal representations for its
    contingent legal liabilities.

    DoD Reporting Entities. The Office of Management and Budget (OMB)
    requires DoD to prepare audited financial statements for the Army General and
    Working Capital Funds, Navy General and Working Capital Funds, Air Force
    General and Working Capital Funds, Military Retirement Trust Fund, and the
    U.S. Army Corps of Engineers Civil Works Program (USACE). In addition, DoD
    reports on the Other Defense Organizations’ General and Working Capital Funds
    and Medicare Eligible Retiree Health Care Fund, which are also included in the
    DoD Agency-Wide Financial Statements.

    Contingent Legal Liabilities. A contingent legal liability arises from pending or
    threatened litigation, possible claims, and assessments which could result in
    monetary loss to an entity. DoD contingent legal liabilities arise from litigation,
    claims, and assessments stemming from events such as aircraft, ship, and vehicle
    accidents; medical malpractice; property or environmental damages; and contract
    disputes. The actual monetary liability in contingent legal cases can be
    considered case-by-case or as an aggregate of multiple cases.

    The Statement of Federal Financial Accounting Standards (SFFAS) No. 5,
    “Accounting for Liabilities of the Federal Government,” as amended by SFFAS
    No. 12, “Recognition of Contingent Liabilities Arising From Litigation,”
    classifies the likelihood of loss as “probable” (likely to occur), “reasonably
    possible” (more than “remote” but less than likely), or “remote” (slight chance of
    occurring). The classification determines whether contingent legal liabilities are
    recorded, disclosed, or not reported in financial statements.
    DoD Reporting Procedures for Contingent Legal Liabilities. DoD Auditors
    request a legal representation letter from each audited entity disclosing contingent
    legal liabilities. The appropriate General Counsel for each audited entity provides
    the auditors with information concerning contingent legal liabilities arising from
    pending or threatened litigation or other possible claims. Because the DoD
    Agency-Wide Financial Statements are comprised of a compilation of the various
    components of DoD, the DoD Office of General Counsel normally uses the same
    information provided by the General Counsels of the DoD components, except
    that the DoD Office of General Counsel uses a higher materiality threshold for
    reporting based on the DoD Agency-Wide Financial Statements. For FY 2004
    and FY 2005, the materiality thresholds for disclosure of individual and
    aggregated legal claims for the audit of the DoD Agency-Wide Financial
    Statements were $100.7 million and $171.4 million, respectively. In response to
    our request during the audit of the FY 2004 DoD Agency-Wide Financial
    Statements, the DoD Office of General Counsel included potential legal claims of
    $364.6 billion.


                                         1
Objectives
    Our overall audit objective was to assess the DoD process to ensure that
    contingent legal liabilities are accurately and completely reported and disclosed
    within financial statements, in accordance with Federal financial accounting
    standards. Specifically, we examined policies and procedures for identifying,
    tracking, estimating, and reporting contingent legal liabilities. In addition, we
    evaluated information presented in legal representation letters and related
    management summaries. We also reviewed the management control program as
    it related to the overall objective. See Appendix A for a discussion of the scope
    and methodology. See Appendix B for prior coverage related to the objectives.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    management controls over reporting and disclosing contingent legal liabilities in
    accordance with Federal financial accounting and reporting requirements. We
    also reviewed the adequacy of management’s self-evaluation of those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for the DoD, as defined by DoD Instruction 5010.40. The
    controls did not ensure that sufficient evidence supported the presentation and
    disclosure of legal loss contingencies on the DoD financial statements.
    Recommendations, if implemented, will correct the identified weakness and could
    result in enhanced visibility over contingent legal liabilities. A copy of the report
    will be provided to the senior officials responsible for management controls in the
    DoD and the Military Departments.

    Adequacy of Management’s Self-Evaluation. DoD officials did not identify
    legal representations and contingent legal liabilities as an assessable unit and,
    therefore, did not identify or report the material management control weakness
    identified by the audit.




                                          2
           Reporting and Support for Contingent
             Legal Liabilities
           The DoD process for evaluating pending litigation, claims, and
           assessments, and reporting contingent legal liabilities does not sufficiently
           satisfy the intent of Federal financial accounting and reporting
           requirements. Specifically:

                 •   Legal representation letters did not provide meaningful
                     assessments or support accruals and disclosures in the financial
                     statements for the DoD Components.

                 •   DoD Components did not report contingent legal liabilities in a
                     consistent manner.
                 •   DoD Components did not always assess and disclose the effects
                     of uncertainties on the financial statements when legal counsel
                     was unable to determine the likelihood of loss.

           In addition, DoD did not report on immaterial cases that, in aggregate,
           exceeded materiality thresholds established by the auditors. DoD has not
           adopted policies and procedures in conformity with Federal financial
           accounting standards to provide assurance that it consistently evaluates,
           estimates, and accounts for litigation, claims, and assessments when
           preparing its financial statements. DoD management has not taken
           ownership over the process, bridging the gaps between financial
           accounting and reporting requirements, audit requirements, and guidance
           issued by the American Bar Association. As a result, the DoD and its
           Components’ representations do not contain sufficient evidence for
           auditors to assess the presentation or disclosure of legal loss contingencies
           on the DoD financial statements. If the risks and uncertainties for
           contingent legal liabilities are not adequately assessed, supported, and
           disclosed on the financial statements, DoD (and perhaps the Federal
           Government) will not be able to receive a favorable opinion on future
           financial statements.


Reporting Requirements
    Federal financial accounting standards require DoD to assess contingent legal
    liabilities and report whether the liabilities are “probable,” “reasonably possible,”
    or “remote.” Specifically, SFFAS No. 5, as amended, requires DoD to:

       •   report a contingent legal liability on the balance sheet when an
           unfavorable outcome is “probable,” and

       •   disclose a contingent legal liability in the notes to the financial statements
           when an unfavorable outcome is “reasonably possible.”


                                          3
           No disclosure is required if the loss from a contingent legal liability is considered
           “remote.”

           SFFAS No. 5, as amended, requires DoD to describe the nature of the contingent
           legal liabilities in its financial statement footnotes and include estimates of the
           possible liabilities or state that estimates cannot be made. To make assessments,
           financial management consults with legal counsel concerning the likelihood of an
           unfavorable outcome of litigation, claims, and assessments, and the amount or
           range of potential monetary loss.

           Legal counsel evaluates the likely outcome of litigation, claims, and assessments
           and estimates the potential monetary loss for cases in which an unfavorable
           outcome is “probable” or “reasonably possible.” OMB 1 requires that the Chief
           Financial Officer assess each case reported in the legal representation letter and
           prepare a management schedule showing its decisions on how such information
           will be reported and disclosed, as applicable. This assessment extends to cases in
           which legal counsel is “unable to express an opinion” as to the likelihood of loss.

           Auditors ordinarily do not possess skills to make legal judgments concerning
           contingent legal liabilities. Therefore, they rely on representations made by
           management and counsel. In accordance with OMB reporting requirements, DoD
           legal counsel and the DoD Chief Financial Officer are required to furnish legal
           representation letters and management summary schedules, respectively, to
           auditors as a means for auditors to corroborate the accuracy and completeness of
           contingent legal liabilities reported and disclosed in financial statements.

           Legal representation letters present legal counsel’s assessments of cases that are
           considered material to the financial statements either individually or in aggregate.
           Management schedules summarize those legal counsel assessments and indicate
           their effect on the financial statements. The representation letter and management
           schedule should corroborate the information in the financial statements.

           Reporting Contingent Legal Liabilities on the Balance Sheet. The FY 2004
           DoD Agency-Wide Balance Sheet included $653 million of contingent legal
           liabilities in Other Liabilities based on $344 million reported by the Army and
           $309 million reported by the Air Force. As required by DoD 7000.14-R, DoD
           Financial Management Regulation, volume 6B, chapter 10, DoD and its
           Components disclose contingent liabilities (meeting the criteria for disclosure in
           the footnotes only) in Note 16 to the financial statements. Note 16 for the Army
           General Fund, 2 Air Force General Fund, and USACE included $435 million,
           $367 million, and $4 billion in contingent legal liabilities, respectively. However,
           Note 16 to the DoD Agency-Wide Financial Statements did not include the
           information disclosed by the DoD Components.


1
    OMB Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements,” amended July 27,
    2004 and OMB Memoranda M-04-20, “FY 2004 Performance and Accountability Reports and Reporting
    Requirements for the Financial Report of the Unites States Government,” July 22, 2004.
2
    These reported amounts do not include contingent liabilities related to Chemical Material
    Demilitarization, Environmental Restoration, and Radioactive Waste Disposal, which were not included
    in the scope of the audit.



                                                     4
DoD Procedures for Compiling and Reporting Contingent
  Legal Liabilities
    The DoD process for evaluating, estimating, and accounting for contingent legal
    liabilities is perfunctory and does not provide the means for auditors to
    corroborate or assess the impact of pending litigation, claims, and assessments
    represented on DoD financial statements. Specifically, DoD legal representations
    and management schedules do not corroborate financial presentation and
    disclosure on the Department’s financial statements. The information contained
    in the legal letters and management schedules did not provide a basis for the DoD
    Agency-Wide, Army, Navy, Air Force, and USACE financial statement
    presentations.
    We reviewed the evaluation, estimating, and accounting processes for the Army,
    Navy, Air Force, and USACE, as well as the information reported on the FY 2004
    financial statements of these Components and the DoD Agency-Wide Financial
    Statements. Table 1 shows the inconsistencies across Components and the
    limitations of each process. Details of each DoD Component are subsequently
    discussed.

                 Table 1. Comparison of DoD Component Procedures for
                          Reporting Contingent Legal Liabilities
                                                   Financial           Estimation
                           Legal               Presentation and     Methodology Using
                          Opinions          Disclosure Supported?   Payout Averages?

     Army           Limited to “Remote”              No                   Yes

                         Limited to
     Navy           “Unable to express an            No                    No
                          opinion”
                             All
     Air Force         Classifications            Partially               Yes
                           Used

     USACE          Limited to “Remote”              No                    No


    Department of the Army. The Department of the Army legal representation
    process did not satisfy SFFAS and OMB reporting requirements. The process did
    not provide meaningful assessments of potential liabilities and was not linked to
    the Army process for reporting and disclosing contingent legal liabilities on the
    financial statements. The legal representation letters from the Army Office of
    General Counsel and the management schedule did not corroborate
    $778.9 million accrued and disclosed as contingent legal liabilities in the FY 2004
    Army financial statements, as shown in Table 2.




                                            5
                          Table 2. Discrepancies Between FY 2004
                     Army Legal Representations and Financial Statements
                                        (in millions)
                                            Legal
                  Contingent            Representation      Financial        Reported on the
                Legal Liabilities          Letters          Statement      Financial Statements

             “Probable”                        $0             $344.0        An accrued liability

             “Reasonably Possible”             $0             $434.9      Shown only in notes to
                                                                          the financial statements
                                                              $778.9

                   Opinions on Legal Representation Letters Limited to “Remote.” The
           Army Office of General Counsel limited their opinions on the likelihood of
           unfavorable outcome for threatened or pending litigation to “remote” for all
           77 cases reported with a claim amount totaling $9.5 billion in FY 2004. 3 Based
           on our review of the cases, we identified at least two cases (with a combined
           claim amount of $123 million and estimated payouts totaling $78.5 million)
           where it appeared that a loss was “reasonably possible.” One case indicated that
           an agreement in principle on a settlement had been reached, and the other case
           indicated an expectation of future monetary losses.

           We did not question counsel for these specific cases because it was their policy to
           generally categorize all cases as “remote.” As the Army gets closer to receiving
           an audit opinion on its financial statements as a whole, we recognize that it will
           be the auditor’s responsibility to ensure clarification on the possibility of potential
           losses.

                   Financial Statement Presentation and Disclosure. The Army
           management schedule and legal representation letter did not corroborate
           $778.9 million accrued and disclosed as contingent legal liabilities in its FY 2004
           financial statements because Army financial managers utilized a data call process
           separate and distinct from the legal representation letters as the source for
           compiling contingent legal liabilities reported in financial statements. As part of
           the data call process, Army financial managers requested that Army legal counsel
           report the unsettled claim amount of all pending litigation, claims, and
           assessments categorized by the potential outflow of funds (“probable,”
           “reasonably possible,” and “remote”). Army legal counsel stated that it applied a
           historical payout ratio to current information to categorize the potential outflow of
           funds because each case is unique in nature and counsel has a difficult time
           forming an opinion on a case-by-case basis about the likelihood of an unfavorable
           outcome or monetary loss. However, the Army did not disclose the estimation
           methodology in its footnotes to the financial statements. Financial managers in

3
    Army Office of General Counsel represented one case in its legal representation letter as “probable” but it
    was changed to “remote” on the management schedule, which was also prepared by Counsel.



                                                        6
the Office of the Assistant Secretary of the Army (Financial Management and
Comptroller) did not review the Army Office of General Counsel’s methodology
for estimating amounts to be reported and disclosed in the financial statements.
In addition, these financial managers did not reconcile and explain differences
between legal representations and the financial statements because management
relied solely on Army legal counsel for both.

Department of the Navy. The Department of the Navy legal representation
process did not satisfy SFFAS and OMB reporting requirements. The process did
not provide meaningful assessments of potential liabilities and did not corroborate
disclosure on the FY 2004 Navy financial statements.

         Opinions on Legal Representation Letters Limited to “Unable to
Express an Opinion.” The Department of the Navy process did not provide
meaningful assessments of the expected outcome of legal cases because legal
counsel followed DoD Office of General Counsel direction and limited their
evaluation results to “unable to express an opinion” for all contingent legal
liability cases. Review of the information in the Navy legal representation letters
for FY 2004 suggested that at least five cases valued at $392.2 million could have
been evaluated as at least “reasonably possible.” Information in the legal
representation letter included language such as:

           •   “claim settled in 2001”

           •   “partial settlements reached”

           •   “parties have engaged in settlement discussions”

           •   “settlement discussions on-going”

           •   “ASBCA [Armed Service Board of Court Appeals] has decided
               entitlement on all claims”

We would not ordinarily question the conclusions of legal counsel. However,
personnel from the Navy Office of General Counsel stated that it is their policy to
not express an opinion concerning the likely outcome of cases except in very rare
circumstances. Such a policy suggests that meaningful assessments may not be
provided.

       Financial Statement Presentation and Disclosure. The Navy Office of
General Counsel represented that it was “unable to express an opinion” about the
expected outcome of contingent legal liabilities with a total claim amount of
$305.7 billion. However, Note 16 to the Financial Statements for the Navy
General Funds stated that the expected outcome of proceedings and legal actions,
individually or in aggregate, would not have a material adverse effect on the
Navy. Therefore, the information from the Navy legal representation letter
contradicted information shown in the Navy financial statements.

Department of the Air Force. The Department of the Air Force employed
evaluation and reporting processes that, in part, satisfied the intent of SFFAS and
OMB reporting requirements. For example, the Air Force generally classified


                                     7
contingent liability cases in accordance with SFFAS No. 5. In addition, it linked
legal representation letters for cases assessed as “probable” with its process to
calculate the contingent liabilities reported for claims and litigation from civil
law. However, the Air Force did not fully substantiate amounts reported and
disclosed on its FY 2004 financial statements.

        Opinions on Legal Representation Letters Varied. Legal counsel for
the Air Force stated that they tried to classify each contingent legal liability case
in the proper category as either “probable,” “reasonably possible,” or “remote.”
However, they acknowledged that sometimes they need to classify certain cases
as “unable to express an opinion,” and 27 percent of the cases that the Air Force
included on its FY 2004 legal representation letter fell into that category.

         Financial Statement Presentation and Disclosure. The Air Force
management schedule and legal representation letters did not fully substantiate
the $308.8 million accrued and $367.3 million disclosed as contingent legal
liabilities in its FY 2004 financial statements. The management schedule and
legal letters did not disclose the estimation methodologies used to derive
reportable liabilities. In addition, the management schedule did not reflect how
legal letters for cases classified as “unable to express an opinion” were used to
derive the liabilities reported in the Air Force financial statements. Also, our
review disclosed:

   •   The Air Force accrued $10.7 million as “probable” losses from contractor
       claims before the Armed Services Board of Contract Appeals based on
       FY 2003 data and disclosed $115.6 million as “reasonably possible”
       losses based on total claims (instead of an estimation) for FY 2004. In
       FY 2003, it estimated $11.5 million as possible losses from contractor
       claims by applying a multi-year historical payout rate to active cases.

   •   The Air Force used an Excel spreadsheet to calculate the $284.5 million
       accrued as “probable” losses from claims and litigation and the
       $246.0 million disclosed as “reasonably possible” losses. Although it
       recognized cases that individually were material and it applied a historical
       payout rate to all other cases, we identified some errors in the
       methodology used. Specifically,

           - Individual opinions shown in the spreadsheet for financial
             statement disposition sometimes differed from opinions stated on
             the legal representation letters (9 discrepancies out of 35 opinions),
             and the spreadsheet formulas did not capture all individual claims.

           - Accrued liabilities were based on total claim amounts instead of
             the estimated settlement value (provided on the legal
             representation letter) for individual cases classified as “probable.”

           - Amounts disclosed as possible liabilities were calculated using
             spreadsheet formulas that did not consider the estimated value or
             range of values (provided on the legal representation letter) for
             individual cases classified as “reasonably possible.”



                                      8
Although the Air Force employed acceptable processes, it needs to review the
methods used to estimate the contingent legal liabilities to assure accuracy and
consistency. In addition, it needs to reconcile and explain differences between the
legal letters, management schedule, and financial statements.

U.S. Army Corps of Engineers. The legal representation process used by
USACE did not provide meaningful assessments of potential liabilities, and these
assessments contradicted financial statement assertions.

       Opinions on Legal Representation Letters Limited to “Remote.” It
was USACE Office of the Chief Counsel’s policy to generally assess all cases as
“remote.” For FY 2004, the total claim amount for cases exceeding the individual
materiality threshold was $3.3 billion. A review of the USACE legal
representation letters suggested that at least seven cases with a claim amount of
$243 million could have been assessed as “reasonably possible.” Case facts
included language such as:

           •   “a dispute remains over the amount that USACE must contribute”

           •   “contracting officer’s decision recognizes partial merit”

           •   “both parties are currently working towards a settlement”

           •   “negotiations have been ongoing”

We did not question legal counsel for these specific cases because it was their
policy to generally categorize all cases as “remote.” As USACE gets closer to
receiving an audit opinion on its financial statements as a whole, we recognize
that it is will be the auditor’s responsibility to ensure clarification on the
possibility of potential losses.

        Financial Statement Presentation and Disclosure. USACE stated in its
footnotes it was “reasonably possible” that 1201 claims valued at $4 billion would
result in a loss. (The $3.3 billion discussed in the previous paragraph included
only cases that exceeded the materiality threshold.) However, the USACE Office
of the Chief Counsel told us that the footnotes should have stated that it was
“remotely possible” that the claims would result in a loss. Neither statement was
supported because USACE categorically represented cases as “remote” regardless
of expected outcome.

DoD Agency-Wide Financial Statements. Note 16 to the FY 2004 DoD
Agency-Wide Financial Statements did not include the contingent legal liabilities
shown in the financial statements of the DoD Components previously discussed
or disclose the amount of contingent legal liabilities for which legal counsel was
unable to express an opinion. Note 16 to the FY 2004 DoD Agency-Wide
Financial Statements merely stated that the expected outcome of matters
involving pending or threatened litigation, claims, and assessments (individually
or in the aggregate) would not have a material adverse effect on the Department.
However, DoD had no basis for its assertion because it only provided opinions
about the likelihood of an unfavorable outcome for $1.45 billion of $371.2 billion
in claims (.4 percent) that were individually material to the DoD Agency-Wide


                                     9
    financial statements or to the Army, Navy, Air Force, and USACE financial
    statements. Therefore, the outcome was uncertain for 99.6 percent of those
    claims. The inability to express an opinion on such a large amount of claims
    represents a significant uncertainty about contingent legal liabilities that was
    material to the DoD Agency-Wide financial statements.


Aggregation of Cases
    Legal representation letters and management schedules for DoD and its
    Components did not include immaterial cases that, in aggregate, exceeded the
    materiality thresholds requested by the auditors. As a result, DoD could not
    support its assertion in the DoD Agency-Wide financial statements that the
    aggregate of cases not included in the legal representation letters would not have
    an adverse impact on the financial statements.

    The use of aggregation makes it easier for management (and its legal counsel) and
    auditors to perform their responsibilities and mitigate the risk of uncertainty
    regarding those cases that are not material and not presented individually on the
    legal representation letter.

    Although we requested information on cases that, in aggregate, exceeded the
    specified materiality threshold, the legal representation letters and management
    schedules did not include that information. The request did not appear to be
    clearly understood by financial management and the legal counsels within DoD.
    We made the following observations about aggregation of individually immaterial
    cases:

       •   The Army Office of General Counsel did not provide information for
           claims valued at $24.8 billion (72 percent of the value of total claims)
           because it aggregates only those cases that are factually similar.

       •   The Navy provided only minimum information on aggregated claims. The
           Navy Office of General Counsel stated that because the request from the
           Office of the Assistant Secretary of the Navy (Financial Management and
           Comptroller) was not clear, it defined aggregate to mean multiple cases or
           claims arising out of a single action, incident, or fatal circumstance that, in
           aggregate, exceeded the materiality threshold.

       •   The Air Force reported and disclosed aggregated information on its
           financial statements, but it did not discuss the information in its legal
           representation letter or document the financial statement disposition of
           aggregated amounts in its management schedule.

       •   USACE showed total claims of $4 billion in Note 16 of its financial
           statements. However, its legal representation letters and management
           schedule only included potential contingent liabilities of $3.3 billion—
           those cases that individually and in aggregate based on a single incident
           exceeded the materiality threshold.



                                         10
           OMB Bulletin No. 01-02, “Audit Requirements for Federal Financial
           Statements,” as amended July 27, 2004, requires auditors to work with
           management and agree on a materiality level for legal counsel to use in the legal
           representation letter. In the past we have used the guidelines in OMB Bulletin
           No. 01-02 or the GAO/President’s Council on Integrity and Efficiency Financial
           Audit Manual, 4 based on the assumption that legal counsel would aggregate
           smaller cases that did not meet the reporting threshold for individual cases.
           Materiality levels are based, for example, on a percentage of assets and, therefore,
           do not correlate to the dollar value of the universe of claims or the distribution of
           those claims. As a result, there could be numerous small cases, regardless of
           similarities, that in aggregate could be material to the financial statements.
           However, our discussions with personnel from the DoD Office of General
           Counsel indicate that, in their opinion, only cases that are identical in almost
           every respect could be aggregated.

           OMB Bulletin No. 01-02 does not specify how Federal agencies should aggregate
           cases and provide information in legal representation letters. It only provides, for
           illustrative purposes, that cases similar in nature should be aggregated where
           appropriate. Regardless of how aggregation is done, it should ensure that some
           type of representation is made concerning all claims that could be material to the
           financial statements as a whole. According to OMB, it is management’s
           responsibility to determine how information is aggregated and reported to the
           auditors. The GAO/President’s Council on Integrity and Efficiency Financial
           Audit Manual suggests that cases not included individually or as part of a group
           of similar cases should be aggregated to determine whether they would be
           material to the financial statements taken as a whole.

           There is no requirement to aggregate cases as long as auditors are able to
           determine the magnitude of potential legal claims. We have suggested that
           management and legal counsel aggregate cases to reduce the amount of work
           required to support an audit opinion. If management (and legal counsel) is unable
           to establish procedures for providing aggregate information about contingent
           legal liabilities, auditors would need to set the individual materiality level low
           enough to provide assurance that claims not included in the legal representation
           letter would not be material to the financial statements. As a result, counsel may
           have to provide legal representations individually for an even greater number of
           cases.

           We support the use of estimation methodologies similar to those used by the
           Army and the Air Force for presenting possible losses based on historical data, if
           considered appropriate. However, use of such estimation methodologies is not
           mandatory.

4
    GAO uses .025 percent of the materiality base for individual cases for the U.S. Government Consolidated
    Financial Statements as discussed in the GAO Financial Audit Manual. OMB Bulletin No. 01-02
    suggests setting the materiality level for the legal letter at .015 percent of the audit materiality base.
    (These two percentages were calculated based on suggested criteria in the Financial Audit Manual for
    determining auditing planning and design materiality.) These low levels of materiality were designed to
    capture contingent liabilities that could possibly have an effect on the financial statements. However, as
    shown in the audit, our use of the reporting thresholds used by GAO for the FY 2004 financial statement
    audit did not, for example, include $24.7 billion in smaller claims for cases that, individually, did not
    meet the reporting threshold we requested.



                                                       11
Process Ownership and Direction
    DoD has not adopted policies and procedures to assure that it consistently
    evaluates, estimates, and accounts for litigation, claims, and assessments as a
    basis for the preparation of financial statements to comply with Federal financial
    accounting standards. DoD management has not taken ownership of the process;
    instead it relies solely on legal counsel for reporting contingent legal liabilities in
    the financial statements. Other Federal agencies receiving audits of their financial
    statements were able to provide the required information to satisfy auditing
    standards.

    SFFAS Guidance versus American Bar Association Policy Statement. DoD
    representations are limited because DoD financial managers have generally relied
    solely on legal counsel for reporting contingent legal liabilities while counsel
    evaluates the likelihood of an unfavorable outcome based on the American Bar
    Association (ABA) “Statement of Policy Regarding Lawyers’ Responses to
    Auditors’ Requests for Information.” Strict adherence to ABA policy has caused
    DoD to limit its representations. The basic premise of the ABA Policy Statement
    is that legal counsel will provide an opinion on the likelihood of loss only if they
    are quite certain no loss will occur or that a loss will occur that can be easily
    quantified. (See Appendix C for a more detailed discussion and comparison of
    the guidelines of the ABA and SFFAS No. 5, and how legal counsel within DoD
    has interpreted this guidance.)

    DoD Management Responsibility. It is DoD management’s responsibility to
    adopt policies and procedures to evaluate, estimate, and account for litigation,
    claims, and assessments as a basis for the preparation of financial statements in
    conformity with Federal financial accounting standards. Counsel within DoD, as
    part of management, needs to be part of the process. The GAO/President’s
    Council on Integrity and Efficiency Financial Audit Manual, April 2003, states
    that while management often relies on the advice of legal counsel about the
    likelihood of an unfavorable outcome and estimates of the amount or range of
    potential loss, management is ultimately responsible for determining whether
    these legal loss contingencies are “probable,” “reasonably possible,” or “remote.”
    As explained in Appendix C, DoD financial managers have deferred the process
    of reporting contingent legal liabilities to Component legal counsels and have not
    provided effective oversight necessary to assure that losses from contingent legal
    liabilities are accurately classified and disclosed in the financial statements. DoD
    needs to synchronize its processes for the legal representation letters, data call and
    estimation, aggregation, management schedules, and financial statement
    disposition so it can provide meaningful and substantiated assertions on its
    financial statements.

    DoD Consistency with Reporting by Other Federal Agencies. GAO audits the
    Consolidated Financial Statements of the Federal Government. GAO has
    expressed concerns about DoD assessments of contingent legal liabilities and the
    representations made on the DoD Agency-Wide financial statements. GAO stated




                                          12
    that the DoD use of “unable to express an opinion” represents the exception
    within the Federal Government. In an effort to gain insight into the legal
    representation process of other Federal agencies, we corresponded with auditors
    of eight Federal agencies.

    Auditors from six of the eight Federal agencies stated that they did not receive
    opinions such as “unable to express an opinion” on contingent legal liability
    outcomes. Only one agency representative stated that general counsel
    categorically limited opinions because of concerns about public access to legal
    representation letters under the Freedom of Information Act. However, the
    auditors held discussions with personnel from the Office of the Chief Financial
    Officer and General Counsel to address their concerns so that the security of those
    representations would not be compromised.

    DoD management needs to identify and mitigate the concerns of the DoD Office
    of General Counsel and general counsels in the Military Departments, Defense
    agencies, and other DoD Component reporting entities with regard to expressing
    and sharing legal opinions. Further, DoD management needs to develop solutions
    that enable legal counsel to classify the likelihood of an unfavorable outcome
    under one of the three classifications as defined by SFFAS No. 5, and provide
    counsel direction in estimating the amount or range of potential loss. Because
    counsel has concerns, it is the responsibility of DoD management to mitigate
    those concerns to develop a solution amicable to all parties so that DoD satisfies
    Federal financial accounting and reporting requirements.

    FY 2005 Interim Legal Representation Letters. Our audit focused on the legal
    representation letters and support for information in the FY 2004 financial
    statements for DoD and its major Components. At the conclusion of our field
    work in August 2005, we noted that information in the interim legal
    representation letters and management schedules for the FY 2005 audit had not
    changed significantly from information we reviewed supporting the FY 2004
    financial statements with one exception. The legal representation letter for the
    Army showed “remote” for most cases. However, the legal representation letter
    for the DoD Agency-Wide financial statements showed “unable to express an
    opinion” for many of the same cases. Different conclusions for the same cases
    cast additional doubt on the integrity of the process.

Conclusion
    Financial statement assertions made in the FY 2004 Financial Statements by DoD
    and its major Components about contingent legal liabilities were not supported
    because DoD was unable to provide assessments individually or in aggregate
    about the expected outcome of matters involving pending or threatened litigation.
    Also, DoD financial statements usually did not disclose significant uncertainty
    based on the information in the legal representation letters. In addition, DoD
    Components were not consistent in how they accrued and disclosed contingent
    legal liabilities. The Departments of the Army and Air Force used estimation
    methodologies that were not disclosed in their legal representation letters and
    management schedules. The Department of the Navy and USACE did not apply
    estimation methodologies.


                                        13
    Without meaningful evaluations, as prescribed in SFFAS No. 5, auditors cannot
    make determinations about the fairness of the representation and disclosure on the
    financial statements or that the expected outcome of litigation will not materially
    affect the financial statements. If not corrected, DoD’s inability to substantiate
    financial statement presentations may preclude a favorable opinion on future DoD
    financial statements and perhaps those of the Federal Government.


Management Comments on the Finding and Audit Response
    The Deputy Chief Financial Officer, Deputy General Counsel (Fiscal), and
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    provided the following comments on the finding. For the full text of their
    comments, see the Management Comments section of the report.

    Office of Under Secretary of Defense (Comptroller) Comments. The Deputy
    Chief Financial Officer disagreed that the Department’s process for evaluating,
    estimating, and accounting for contingent legal liabilities is perfunctory. She
    stated that her office works closely with the DoD Office of General Counsel to
    prepare the summary schedule of reported cases and to ensure proper reporting of
    legal contingencies.

    DoD Office of General Counsel Comments. The Deputy General
    Counsel (Fiscal) stated that there was absolutely no basis for the statement that
    the DoD process for evaluating, estimating, and accounting for contingent legal
    liabilities is perfunctory. He stated that the DoD Office of General Counsel and
    each of the Offices of General Counsel of the Army, Navy, and Air Force expend
    considerable time and effort to ensure that the information reported in legal
    representation letters is complete, thorough, and accurate. He stated that the
    report ignored the fact that the Department’s method of reporting cases and the
    practice of generally declining to express an opinion concerning outcomes and
    limits of liability is consistent with ABA standards. Further, the report did not
    acknowledge the direct relationship between ABA standards and a lawyer’s
    professional and ethical obligations toward the lawyer’s client. He noted that,
    while rare, the Department has consistently expressed opinions concerning case
    outcomes when case facts support such an opinion.

    The Deputy General Counsel (Fiscal) stated that his office adheres to the concept
    that cases should only be aggregated when cases and the underlying principles are
    clearly identical. This concept is consistent with reporting cases “at or above” the
    materiality threshold. To aggregate cases below the materiality threshold until
    such threshold is reached would mandate collecting and reporting information
    concerning every case or controversy against the Department. He stated that his
    office does not agree that immaterial cases can be made material simply by
    aggregating. In the opinion of his office, the aggregation of smaller cases is not
    required and is not supportable by either OMB Bulletin No. 01-02 or the
    GAO/President’s Council on Integrity and Efficiency Financial Audit Manual.
    Further, OMB Bulletin No. 01-02 reference to “[c]ases similar in nature should be
    aggregated where appropriate” is a shorthand encapsulation of the conditions that
    must be met before individual cases can be certified as a class action. The


                                        14
           conditions that must exist to certify a class action lawsuit are that the plaintiffs are
           similarly situated and the defendants, basic facts, and legal issues are the same.

           The Deputy General Counsel (Fiscal) included a 152-page attachment 5 in his
           response which discussed analysis by his office of information contained in
           contingency footnotes to 23 Chief Financial Officers Act agencies’, Department
           of Homeland Security, and U.S. Government-wide FY 2004 financial statements.
           He stated that, after reviewing this information, it is hard to ascertain any single
           method for reporting cases or expressing an opinion concerning their outcome or
           anticipated amount of liability. Further, how claims and contingencies are
           reported does not seem to affect whether an agency receives an unqualified audit
           opinion.

           Navy Comments. The Assistant Secretary of the Navy (Financial Management
           and Comptroller) stated that expressions concerning case outcomes and potential
           liabilities made by the Department of the Navy have been consistent with the facts
           of the cases being reported, the realities of litigation, and the ABA guidelines
           concerning such reports. Further, they are in strict conformance with specific
           guidance from the DoD Office of General Counsel. Therefore, they are consistent
           with the overarching generally accepted accounting principle that financial
           statements must fairly and accurately present the financial status and other facts
           pertaining to the reporting agency.

           Audit Response. We recognize the efforts of DoD and its Component personnel
           in compiling information about its contingent legal liabilities. However, the
           process for evaluating, estimating, and accounting for contingent legal liabilities
           produced legal representations and management schedules that did not
           corroborate financial statement assertions. As depicted in Appendix C, DoD
           believes that it is limited in what it can conclude, document, and provide to
           auditors. DoD Components told us that they categorically classified individual
           cases, regardless of case facts. DoD has, in effect, taken the position that only
           those contingent legal liabilities meeting the definition of a liability should be
           reported or disclosed. As such, the process derived does not satisfy the intent of
           the accounting standards; therefore, the financial statements do not present the
           relevant information intended by SFFAS No. 5, as amended. As shown in the
           report, DoD and its major Components need to synchronize their processes for
           legal representation letters and management schedules with their processes for
           reporting and disclosing contingent legal liabilities in conformity with SFFAS
           No. 5, as amended. Further, their processes should result in information that
           provides the means for auditors to corroborate or assess financial statement
           assertions and the impact of pending litigation, claims, and assessments on DoD
           financial statements.

           We recognize the professional and ethical obligations of DoD and its Component
           legal counsel to preserve client confidences, as well as attorney-client privileged
           communications under applicable law. In addition, we recognize that counsel
           must adhere to the ABA “Statement of Policy Regarding Lawyers’ Responses to
           Auditors’ Requests for Information.” Appendix C of the report discusses legal

5
    The attachment has been omitted from this report because of its length. Copies will be provided upon
    request.



                                                     15
guidelines and illustrates the differences between legal and accounting guidelines.
Further, it discusses the underlying principles specified by counsel for legal
opinions expressed on legal representation letters. The appendix is intended to
convey, in part, the concerns of counsel with regard to expressing and sharing
legal opinions and to demonstrate the need for financial management, with
involvement by counsel, to develop solutions amicable to all parties so that DoD
and its major Components consistently evaluate, estimate, and account for
pending litigation, claims, and assessments as a basis for financial statement
presentation and disclosure in conformity with SFFAS No. 5, as amended.

The Deputy General Counsel (Fiscal) is correct that immaterial cases are not
made material simply by aggregating them. More specifically, they are not
necessarily material to the financial statements, taken as a whole. Our discussion
regarding aggregation of cases is intended to convey that information on smaller
cases, individually or in aggregate, is needed to determine the magnitude of
potential legal claims. The GAO/President’s Council on Integrity and Efficiency
Financial Audit Manual states that:

       In aggregating cases, the auditor and the entity may use two levels of
       aggregation. First, similar cases (such as employment discrimination
       cases . . . or military promotion board challenges) should be aggregated
       and treated as a group and compared with the individual materiality
       level. The aggregation generally should include a list of the individual
       cases that are aggregated and a discussion of the items of information
       requested to be included in the legal letter. . . . Second, all cases not
       included in the legal letter individually or as part of a group of similar
       cases should be aggregated. . . .

       In determining a materiality level for the legal letter, the auditor should
       set the level sufficiently low [to provide assurance] that the cases not
       included in the legal letter would not be material to the financial
       statements taken as a whole when aggregated with (1) other cases not
       included in the letter, (2) all other types of contingencies, (3) all other
       items that would not be adjusted because they are judged immaterial
       (unadjusted misstatements), (4) all other amounts in the financial
       statements that would not be tested directly because they were judged
       to be immaterial, and (5) all other items resolved on the basis of
       materiality considerations. . . .

Therefore, regardless of how aggregation is done, it should ensure that some type
of representation is made concerning all legal claims that could be material to the
financial statements as a whole.

We recognize that OMB guidance is vague and that clarity needs to be provided.
As stated in the report, OMB Bulletin No. 01-02 does not specify how Federal
agencies should aggregate cases and provide information in legal representation
letters. Instead, OMB Bulletin No. 01-02 provides an illustrative letter of inquiry
from agency management to legal counsel that states “[c]ases similar in nature
should be aggregated where appropriate.” It also provides a format for the
management schedule that instructs Chief Financial Officers to “work with legal
counsel to provide further disaggregation of dissimilar cases.” Further, “CFOs


                                          16
[Chief Financial Officers] should use professional judgment, considering the
purpose of this schedule when determining the level of aggregation.”

We have discussed possible revisions with OMB so that OMB Bulletin No. 01-02
better reflects auditor information needs as described in the GAO/President’s
Council on Integrity and Efficiency Financial Audit Manual. However, until
revisions are made and implemented, we reiterate that financial management,
with involvement by counsel, needs to develop solutions for aggregating cases
amicable to all parties so that DoD and its major Components provide, as part of
the legal representation letter and management schedule process taken together,
the means for auditors to corroborate or assess financial statement assertions and
the impact of pending litigation, claims, and assessments on DoD financial
statements.

The extensive amount of additional information provided in the Deputy General
Counsel (Fiscal) response, which related to the footnotes for contingent liabilities
of other Federal reporting entities, does not provide for the relevant information
supporting these footnotes. Specifically, it does not describe the nature and extent
of evidential matter provided to auditors which may have helped them to assess
management’s assertions concerning the effect of legal loss contingencies on the
financial statements for purposes of rendering an audit opinion. Auditing
standards require auditors to obtain sufficient competent evidential matter from
management, supported by legal counsel, regarding pending or threatened
litigation and unasserted claims and assessments to support management’s
assertions in financial statements. If we are unable to obtain satisfactory
information on the nature and extent of legal loss contingencies through the legal
representations process, we may not be able to provide a favorable audit opinion
on future DoD financial statements. Because DoD is a material component of the
consolidated financial statements of the U.S. Government, our opinion may affect
the audit opinion given on the Government statements.

Although the Navy endeavored to follow ABA guidelines and guidance from the
DoD General Counsel, we do not believe that the Navy was fully satisfying
SFFAS No. 5, as amended, which is the generally accepted accounting principle
relevant to accounting for and reporting contingent legal liabilities of the Federal
government. The Navy relied solely on the legal representation process as the
basis for reporting and disclosing contingent legal liabilities in Navy financial
statements. Therefore, the Navy only considered legal claims that individually or
in aggregate as part of a group of similar cases met materiality thresholds
established by auditors (not accountants). In addition, it did not consider
information on cases not included in the legal representation letter individually or
in aggregate. Further, it substituted concepts of probability specified for the
accounting profession in SFFAS No. 5, as amended, with concepts of probability
specified for the legal profession in ABA guidelines for furnishing information to
auditors. As a result, the Navy did not fully consider the magnitude of potential
legal claims in making accrual and disclosure determinations for contingent legal
liabilities.




                                     17
Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. Based on management comments and because the
    Chief Financial Officer is responsible for ensuring that Federal financial
    accounting standards are followed, we have revised the recommendation to make
    the Under Secretary of Defense (Comptroller)/Chief Financial Officer the lead for
    implementing Recommendation 1.

    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer take the lead in working with the DoD Office of General
    Counsel to establish a forum or other vehicle, with representation from the
    management and legal counsels from each of the DoD reporting entities, to
    mitigate the concerns of counsel. Specifically,
           a. Develop solutions for providing meaningful assessments based on
    the requirements of the Statement of Federal Financial Accounting
    Standards No. 5, “Accounting for Liabilities of the Federal Government,” as
    amended, and Office of Management and Budget Bulletin No. 01-02, “Audit
    Requirements for Federal Financial Statements,” amended July 27, 2004.

    Office of Under Secretary of Defense (Comptroller) Comments. The Deputy
    Chief Financial Officer partially concurred, stating that her office has noticed
    inconsistent reporting across the Federal Government. She stated that her office
    would work with the Office of Management and Budget and the Department of
    Treasury to ensure standardized reporting across the Government, which could
    then be implemented across DoD.

    DoD Office of General Counsel Comments. The Deputy General
    Counsel (Fiscal) partially concurred, stating that, from his office’s review of
    footnotes for the FY 2004 Chief Financial Officer Act agencies’, Department of
    Homeland Security, and Government-wide financial statements, the
    recommended actions should be elevated for Government-wide consideration.
    Otherwise, the proliferation of different approaches, none of which seems to
    preclude other auditors from rendering an unqualified opinion, will continue. The
    Deputy General Counsel (Fiscal) also stated that his office does not concur with
    any suggestion that the current process for reporting contingent legal liabilities is
    not fully compliant with the requirements.
    Navy Comments. Although not required to comment, the Assistant Secretary of
    the Navy (Financial Management and Comptroller) stated that the DoD cannot
    simply ignore or disregard the American Bar Association’s “Statement of Policy
    Regarding Lawyers’ Responses to Auditors’ Requests for Information.” DoD has
    included a category “Unable to Express an Opinion Concerning the Likely
    Outcome of this Case” for reporting cases in connection with an auditor’s review
    of financial statements, which is consistent with both the Statement of Policy and
    the reality of litigation.




                                         18
Audit Response. Comments by the Deputy Chief Financial Officer and Deputy
General Counsel (Fiscal) are not responsive. The Deputies appeared to be more
interested in standardized reporting across the Federal Government than in
addressing the issues identified by the report that are specific to DoD. Although
we support discussions to ensure a more consistent and standardized Government-
wide reporting of contingent legal liabilities, there is no evidence to suggest that
the concerns conveyed by DoD and its major Component legal counsels with
regard to expressing and sharing legal opinions is a Government-wide issue. The
recommendation was based on trends we observed in the legal representation
letters and the explanations for those trends. As stated in Appendix C, the Army
and U.S. Army Corps of Engineers told us that they limited opinions on likely
outcome to “remote,” regardless of case facts or anticipated outcome, so that its
legal positions would not be revealed outside attorney-client channels. The DoD
Office of General Counsel and Navy told us that, consistent with American Bar
Association guidelines, it is their policy to not express an opinion concerning the
likely outcome of cases except in very rare circumstances. Financial managers
need to work with legal counsel to mitigate the concerns of counsel and make
certain legal representation letters reflect meaningful assessments of case facts.
Further, financial managers need to assess cases in which legal counsel was
“unable to express an opinion” as to the likelihood of loss to determine whether
those legal uncertainties, individually or in aggregate, have a material affect on
the financial statements and should be disclosed. Its decisions on how such
information will be reported and disclosed should be shown in its management
schedule.

Financial managers are ultimately responsible for classifying legal loss
contingencies under one of the three classifications as defined by Statement of
Federal Financial Accounting Standards No. 5, as amended, and making financial
accounting and reporting determinations for contingent legal liabilities. Our
responsibility is to follow auditing standards and evaluate whether the guidance
shown in the accounting standards are followed. We are making a minor revision
to the recommendation to emphasize that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer should take the lead for implementing
Recommendation 1. The Chief Financial Officer has the responsibility to ensure
that DoD follows Federal financial accounting standards. We request that the
Under Secretary provide comments in response to the final report.

      b. Develop and implement a uniform methodology for estimating,
aggregating, and reporting contingent legal liabilities.

Office of Under Secretary of Defense (Comptroller) and DoD Office of
General Counsel Comments. The Deputy Chief Financial Officer and Deputy
General Counsel (Fiscal) stated that it was unclear whether the recommendation
referred to a financial reporting definition of aggregation or a legal definition.
The Deputy Chief Financial Officer concurred if the recommendation referred to
a financial reporting definition of aggregation, stating that her office would
comply. The Deputy General Counsel (Fiscal) deferred to the Office of the Under
Secretary of Defense (Comptroller) if the recommendation referred to a financial
reporting definition of aggregation. However, if it referred to a legal definition,
his office nonconcurred, stating that the procedures, principles, and guidelines
followed by the General Counsel of the DoD and the Military Departments for the


                                    19
collection and reporting of cases is compliant with all standards applicable to a
lawyer’s professional responsibilities and duties. He added that in view of the
inherent uncertainties applicable to cases, any estimates of legal liabilities would
be speculative and would do nothing to advance the goal of having fair and
accurate financial statements.

Navy Comments. Although not required to comment, the Assistant Secretary of
the Navy (Financial Management and Comptroller) stated that it is critical that the
Office of the Secretary of Defense establish a uniform methodology for the
aggregation of cases and provide each of the military services a legal definition
that will be used to aggregate the cases, where applicable. He stated that the DoD
Office of the Inspector General has not developed a clear definition of
aggregation. In its memorandum calling for legal representation letters, the
Inspector General mentioned aggregation only once stating that “[c]ases similar in
nature should be aggregated where appropriate.” Thus, the Department of the
Navy instructed its activities to aggregate claims arising out of a single event
(litigation, claim, or assessment) or series of events and to report aggregate claims
that meet the Inspector General’s materiality threshold.

The Assistant Secretary of the Navy (Financial Management and Comptroller)
also stated that cases reported in the legal representation letters have an associated
amount; therefore, there is no need for the Office of the Secretary of Defense to
develop a uniform estimating methodology. Further, the Office of the Secretary
of Defense has developed a uniform methodology for reporting contingent legal
liabilities, and it is in compliance with the American Bar Association’s Statement
of Policy.

Audit Response. Comments by the Deputy Chief Financial Officer and Deputy
General Counsel (Fiscal) are not responsive. It is not clear whether the Deputies
plan to establish a forum or other vehicle, with representation from the
management and legal counsels from each of the DoD reporting entities, to solve
the specific problems within DoD. We request that the Under Secretary of
Defense (Comptroller)/Chief Financial Officer provide comments to the final
report that address how DoD will develop and implement a uniform methodology
for estimating, aggregating, and reporting contingent legal liabilities.

The recommendation relates to our discussion regarding aggregation of cases,
which was primarily based on the guidance shown in the Government
Accountability Office/President’s Council on Integrity and Efficiency Financial
Audit Manual. It was intended to convey that information on smaller cases not
included in the legal representation letter, individually or in aggregate, is needed
to determine the magnitude of potential legal claims. Further, such information
should be requested, collected, and shown in a management schedule. We
recognize that Office of Management and Budget Bulletin No. 01-02 could
provide better clarification regarding aggregation, and we are awaiting the Office
of Management and Budget to revise this regulation based on our input and the
input of the Government Accountability Office.

Regarding the unsolicited comments from the Navy concerning a uniform
methodology for estimating and reporting contingent legal liabilities, we were
unable to identify anything that was uniform within DoD, as illustrated in Table 1


                                     20
and throughout the report. We advocate uniformity and consistency in whatever
methods are utilized to quantify and report legal loss contingencies considered
probable or reasonably possible. The Navy states that the Office of the Secretary
of Defense methodology for reporting contingent legal liabilities is in compliance
with the American Bar Association’s Policy Statement. But what continues to be
missing is an assessment of compliance when measured against Statement of
Federal Financial Accounting Standards No. 5, “Accounting for Liabilities of the
Federal Government,” as amended.

2. We recommend that the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer publish policy in the DoD Financial
Management Regulation 7000.14-R to ensure DoD and its Components
consistently apply accounting and auditing standards cited in 1.a. and
consistently disclose all contingent liabilities considered to be material to the
financial statements.

Office of Under Secretary of Defense (Comptroller) Comments. The Deputy
Chief Financial Officer partially concurred, citing her response to
Recommendation 1.a. She stated that, upon followup discussions with the DoD
Components, Office of General Counsel, other Federal agencies, Office of
Management and Budget, and Department of Treasury, her office would revise
the DoD Financial Management Regulation, as appropriate.

DoD Office of General Counsel and Navy Comments. Although not required
to comment, the Deputy General Counsel (Fiscal) reiterated his comments to
Recommendation 1.a. and stated that his office believes that the Department fully
complies with Office of Management and Budget Bulletin No. 01-02. The
Assistant Secretary of the Navy (Financial Management and Comptroller)
nonconcurred with the recommendation to the extent that it suggested that DoD
ignore the American Bar Association’s “Statement of Policy Regarding Lawyers’
Responses to Auditors’ Requests for Information.”

Audit Response. The Deputy Chief Financial Officer comments are partially
responsive. Based on the comments to Recommendation 1.a., it is not clear
whether the Deputy plans to address and solve the specific problems within DoD.
Management should realize that accounting standards referenced in the
recommendation are not established by the Office of General Counsel and other
Federal Chief Financial Officer reporting agencies. Federal financial accounting
standards are established by the Federal Accounting Standards Advisory Board.
Although we consider its comments partially responsive, we have decided not to
request additional comments to the final report. We will await the revisions to the
DoD Financial Management Regulation to fully evaluate DoD’s responsiveness.

Regarding the unsolicited comments from the Navy, we want to clarify that we
are not suggesting in any way that DoD (and its lawyers) ignore American Bar
Association standards. It is the policy of the DoD Office of the Inspector General
to follow auditing standards established in the Government Accountability
Office/President’s Council on Integrity and Efficiency Financial Audit Manual
and Office of Management and Budget Bulletin No. 01-02. It is our hope that the
new version of Office of Management and Budget Bulletin No. 01-02 will clarify
ambiguities regarding the intent and goals of aggregation, responsibilities in


                                    21
relation to legal letters, management schedules, and compliance with accounting
standards taken together, and the underlying purpose of the legal representation
process.

3. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, Office of the Assistant Secretary of the Army (Financial
Management and Comptroller), Office of the Assistant Secretary of the Navy
(Financial Management and Comptroller), Office of the Assistant Secretary
of the Air Force (Financial Management and Comptroller), and the
Commander, U.S. Army Corps of Engineers:

   a. Ensure that amounts accrued in “Other Liabilities” and information
      disclosed for contingent liabilities in Note 16 to the financial
      statements is fully supported and agrees with information in the legal
      representation letters and management schedule.

Office of Under Secretary of Defense (Comptroller) Comments. The Deputy
Chief Financial Officer concurred, stating that her office would ensure that
information in financial statements is supportable and agrees with information in
legal letters and management schedule.

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) concurred, stating that his office will coordinate with the Office of
the Army General Counsel to ensure information provided for financial reporting
has required support and audit trails. Further, his office will assess whether
amounts accrued and disclosed agree with the legal representation letters, where
applicable. However, he stated that future note disclosures may differ from legal
representation letter information due to document preparation considerations that
apply. For example, the legal representation letter must be prepared using
agreed-upon reporting thresholds while Note 16 is not compiled with such
parameters.

Navy Comments. The Assistant Secretary of the Navy (Financial Management
and Comptroller) concurred, stating that the Department of the Navy already does
this.

Air Force Comments. The Deputy Assistant Secretary of the Air
Force (Financial Operations) concurred, stating that financial management
personnel will ensure legal representation letters and the management schedule
fully substantiate amounts reported and disclosed as contingent legal liabilities on
its financial statements. Further, financial management personnel will continue to
work with legal counsel to ensure that differences between the legal letters,
management schedule, and financial statements are reconciled and explained.

U.S. Army Corps of Engineers Comments. The Commander, U.S. Army Corps
of Engineers, concurred, generally reiterating the recommended actions and
stating that the Resource Management Directorate will work with the Office of
Counsel to complete the actions.

DoD Office of General Counsel Comments. Although not required to
comment, the Deputy General Counsel (Fiscal) concurred that the contingencies


                                    22
footnote should reflect the information contained in the legal representation
letters; however, he stated that his office does not believe that all the information
in that footnote must be included in the legal representation letters. He indicated
that other information not related to the information contained in the legal
representation letter could be disclosed in the footnote as long as the basis on
which it is being reported is clearly identified and distinguished from legal letter
information.

Audit Response. Comments by the Deputy Chief Financial Officer, Deputy
Assistant Secretary of the Army (Financial Operations), Deputy Assistant
Secretary of the Air Force (Financial Operations), and Commander, U.S. Army
Corps of Engineers, are responsive. Although the Assistant Secretary of the Navy
(Financial Management and Comptroller) concurred, we do not consider its
comments responsive. As stated in the report, Navy legal representations
contradicted its assertions in Note 16 to the financial statements. Also, auditing
standards require auditors to consider the completeness assertion embodied in the
account balance, transaction class, and disclosure components of the financial
statements. Because the Navy relied solely on the legal representation process as
the basis for reporting and disclosing contingent legal liabilities in Navy financial
statements, we do not believe that the Navy fully considered the magnitude of
potential legal claims in making accrual and disclosure determinations. However,
because we plan to revisit the report subject during our annual audits of the
financial statements for DoD and its major Components, we have decided not to
request additional comments from the Navy. We will continue to work with the
Navy to ensure contingent legal liabilities are appropriately reported and
disclosed in the financial statements.

   b. Review and approve estimation methodologies and disclose, when
      applicable, those methodologies in Note 16 of the financial statements.

Office of Under Secretary of Defense (Comptroller) Comments. The Deputy
Chief Financial Officer concurred, stating that her office would review, approve,
and disclose estimating methodologies in financial statements, as appropriate.

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) concurred, generally reiterating the recommended actions and stating
that his office will coordinate with the Office of the Army General Counsel to
complete the actions. Further, approval of estimation methodologies will be
contingent upon Office of the Army General Counsel adherence to applicable
regulation and guidance for compiling contingent liabilities for financial
reporting.

Navy Comments. The Assistant Secretary of the Navy (Financial Management
and Comptroller) nonconcurred, stating that estimating methodologies only add
complexity and questions. Further, the Assistant Secretary indicated that there is
nothing to suggest that generally accepted accounting principles require any
single method for reporting cases or the expression of an opinion concerning the
outcome or anticipated amount of liability with respect to the cases. He indicated
that, based on a lack of uniformity in reporting methodology found in a review of
other Chief Financial Officer Act agencies’ financial statements, there is no single
principle set forth by generally accepted accounting principles for whether case


                                     23
outcome and potential loss need to be expressed in financial statement footnotes.
Further, this lack of a single principle did not seem to affect whether the agencies’
statements achieved an unqualified audit opinion.

Air Force Comments. The Deputy Assistant Secretary of the Air
Force (Financial Operations) concurred, stating that financial management
personnel will review the methods used to estimate contingent legal liabilities to
ensure those methods accurately and consistently calculate contingent legal
liabilities. Further, personnel will disclose the estimation methods in Note 16,
“Commitments and Contingencies,” when applicable. He also stated that his
office will work with legal counsel to ensure the management schedule and legal
representation letters disclose the estimation methods.

U.S. Army Corps of Engineers Comments. The Commander, U.S. Army Corps
of Engineers, concurred, generally reiterating the recommended actions and
stating that the Resource Management Directorate will work with the Office of
Counsel to complete the actions. Further, approval of estimation methodologies
would be contingent upon the Corps Office of Counsel adherence to applicable
regulation and guidance for compiling contingent liabilities for financial
reporting.

DoD Office of General Counsel Comments. Although not required to
comment, the Deputy General Counsel (Fiscal) questioned the utility of any
information developed from an estimation methodology. In view of the inherent
uncertainties of all litigation, projecting past results onto current facts would
appear to be highly speculative. However, he stated that his office did not believe
there would be any obstacle to presenting such information in the footnote as long
as it was made clear that the information was derived from accounting or
statistical methods and was not based on any evaluation by an attorney
concerning the outcome of any pending cases.

Audit Response. Comments by the Deputy Chief Financial Officer, Deputy
Assistant Secretary of the Army (Financial Operations), Deputy Assistant
Secretary of the Air Force (Financial Operations), and Commander, U.S. Army
Corps of Engineers, are responsive. Comments by the Assistant Secretary of the
Navy (Financial Management and Comptroller) are not responsive. We did not
recommend that the Navy develop estimating methodologies. Our
recommendation was intended to convey, in part, that if the Navy uses estimation
methodologies to derive contingent legal liabilities reported and disclosed on its
financial statements, the Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller) should review and approve those methodologies.
As stated in the report, we support the use of estimation methodologies similar to
those used by the Army and the Air Force for presenting possible losses based on
historical data, if considered appropriate. However, use of such estimation
methodologies is not mandatory. Because we plan to revisit the report subject
during our annual audits of the financial statements for DoD and its major
Components, we have decided not to request additional comments from the Navy.




                                     24
   c. Disclose in Note 16 to the financial statements the dollar value of
      claims that legal counsel is unable to express an opinion or unable to
      provide an estimate or range of estimates for contingent legal
      liabilities, if such contingent liabilities are material to the financial
      statements.

Office of Under Secretary of Defense (Comptroller) Comments. The Deputy
Chief Financial Officer partially concurred, citing her response to
Recommendation 1.a. She stated that, upon followup discussions with the DoD
Components, Office of General Counsel, other Federal agencies, Office of
Management and Budget, and Department of Treasury, her office would disclose,
if appropriate, the dollar value of claims that legal counsel is unable to express an
opinion if such contingent liabilities are material to the financial statements.

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) partially concurred, stating that his office will coordinate with the
Office of the Army General Counsel to gather and assess the dollar value of
claims that legal counsel is unable to express an opinion or unable to provide an
estimate or range of estimates. However, he stated that disclosure of this
information will not be limited to materiality thresholds and will take in to
account the many complexities of assessing claims.

Navy Comments. The Assistant Secretary of the Navy (Financial Management
and Comptroller) nonconcurred, stating that the manner of reporting cases must
fairly and accurately present the agency’s financial status and is at management’s
discretion. Further, each and every case and situation needs to be evaluated in the
context of its unique situation. Where opinions are made, the opinions should be
factually and logically supportable.

Air Force Comments. The Deputy Assistant Secretary of the Air
Force (Financial Operations) nonconcurred, stating that, as noted in the report, the
Air Force employs evaluation and reporting processes that satisfy the intent of
reporting requirements. However, he stated that if legal counsel is unable to
classify a claim as “probable,” “reasonably possible,” or “remote,” and no other
evaluation and reporting process is used, it is understandable to disclose the dollar
value of claims in Note 16.

U.S. Army Corps of Engineers Comments. The Commander, U.S. Army Corps
of Engineers, concurred, stating that the Resource Management Directorate will
work with the Office of Counsel to gather and assess the dollar value of claims
that legal counsel is unable to express an opinion or unable to provide an estimate
or range of estimates.

DoD Office of General Counsel Comments. Although not required to
comment, the Deputy General Counsel (Fiscal) stated that there is no legal
objection to presenting this information; however, he questioned its utility. He
restated that his office did not believe there would be any obstacle to presenting
such information in the footnote as long as it was made clear that the information
was derived from accounting or statistical methods and was not based on any
evaluation by an attorney concerning the outcome of any pending cases.



                                     25
Audit Response. Comments by the Deputy Assistant Secretary of the Army
(Financial Operations) and Commander, U.S. Army Corps of Engineers, are
responsive. Although the Deputy Assistant Secretary of the Air Force (Financial
Operations) nonconcurred, we consider its comments responsive because the
Air Force employs an evaluation methodology and reporting process that satisfies
the intent of the reporting requirements. Comments by the Deputy Chief
Financial Officer are partially responsive and comments by the Assistant
Secretary of the Navy (Financial Management and Comptroller) are not
responsive. Our recommendation was intended to convey, in part, that financial
managers need to request, collect, and assess cases in which legal counsel was
“unable to express an opinion” as to the likelihood of loss to determine whether
those legal uncertainties, individually or in aggregate, have a material affect on
the financial statements and should be disclosed. It is not clear whether the
Office of the Under Secretary of Defense (Comptroller) or the Navy will make
such a determination. However, because we plan to revisit the report subject
during our annual audits of the financial statements for DoD and its major
Components, we have decided not to request additional comments from DoD or
the Navy. We will continue to work with DoD and the Navy to ensure contingent
legal liabilities are appropriately disclosed in the financial statements.




                                    26
Appendix A. Scope and Methodology
   We selected the DoD Agency-Wide and major Components required by OMB to
   receive audit opinions on their FY 2004 financial statements, which received
   disclaimers of audit opinion. The Components are the Army General and
   Working Capital Funds, Navy General and Working Capital Funds, Air Force
   General and Working Capital Funds, and the U.S. Army Corps of Engineers Civil
   Works Program. The Components reported contingent liabilities for matters such
   as legal actions, chemical demilitarization non-stockpile disposal, environmental
   restoration, and radioactive waste disposal. We excluded chemical
   demilitarization non-stockpile disposal, environmental restoration, and
   radioactive waste disposal from our review.

   We ascertained which policies, procedures, and techniques were established and
   implemented to identify, evaluate, and report contingent legal liabilities arising
   from pending or expressly threatened litigation, likely claims, and assessments.
   We interviewed financial management and legal officials within the:

          •   Office of the Under Secretary of Defense (Comptroller) / Chief
              Financial Officer,
          •   DoD Office of General Counsel,
          •   Office of the Assistant Secretary of the Army (Financial Management
              and Comptroller),
          •   Department of the Army Office of the General Counsel,
          •   U.S. Army Legal Services Agency,
          •   U.S. Army Claims Service,
          •   Office of the Command Counsel, U.S. Army Materiel Command,
          •   Office of the Assistant Secretary of the Navy (Financial Management
              and Comptroller),
          •   Department of the Navy Office of the General Counsel,
          •   Department of the Navy Office of the Judge Advocate General,
          •   Office of the Assistant Secretary of the Air Force (Financial
              Management and Comptroller),
          •   Air Force Legal Services Agency,
          •   Air Force Materiel Command Law Office,
          •   Directorate of Resource Management, U.S. Army Corps of Engineers,
          •   Office of the Chief Counsel, U.S. Army Corps of Engineers, and
          •   Defense Finance and Accounting Service Centers.

   We corroborated amounts reported as contingent legal liabilities in the FY 2004
   financial statements of the Army General and Working Capital Funds, Navy
   General and Working Capital Funds, Air Force General and Working Capital
   Funds, and U.S. Army Corps of Engineers Civil Works Program against
   supporting source documentation such as journal vouchers, data call submissions,
   and legal representation letters.


                                       27
We reviewed the processes employed to provide legal representations for the
FY 2004 financial statements of the Army General and Working Capital Funds,
Navy General and Working Capital Funds, Air Force General and Working
Capital Funds, and U.S. Army Corps of Engineers Civil Works Program. In total,
the above DoD reporting entities provided 196 legal representation letters
representing a combined claim amount of $323 billion.

We evaluated legal representation letters to determine whether the letters
provided adequate information to enable the proper reporting of contingent legal
liabilities in financial statements. We determined whether letters expressed
opinions on the likely outcomes of cases, expressed opinions which were
consistent with narrative, and identified potential monetary losses. We
determined whether procedural or control weaknesses caused the submission of
inadequate information.

We evaluated management summary schedules of legal representation letters to
determine whether letters were accurately and completely summarized on
schedules and properly disposed in financial statements and notes. We verified
that information in legal letters, management schedules, and financial statements
was consistent. We also assessed whether note disclosures provided sufficient
information about conditions noted on the letters and schedules.

We performed this audit from August 2004 through August 2005 in accordance
with generally accepted government auditing standards.

Use of Computer-Processed Data. We used computer-processed data contained
within the Defense Departmental Reporting System to perform this audit.
However, we did not rely on the processes to compile the data or controls over the
data derived. We compared Defense Departmental Reporting System outputs to
source documentation to conclude on the nature and accuracy of contingent legal
liabilities reported in the FY 2004 financial statements.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Financial Management high-risk area.




                                    28
Appendix B. Prior Coverage
    During the last 5 years, GAO, the Department of Defense Inspector
    General (DoD IG), the U.S. Army Audit Agency, and the Air Force Audit Agency
    have issued ten reports discussing the financial reporting of legal loss
    contingencies, liabilities, or representations. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-05-407, “Financial Audit: Process for Preparing the
    Consolidated Financial Statements of the U.S. Government Continues to Need
    Improvement,” May 2005

    GAO Report No. GAO-04-866, “Financial Audit: Process for Preparing the
    Consolidated Financial Statements of the U.S. Government Needs Further
    Improvement,” September 2004

    GAO Report No. GAO-04-45, “Financial Audit: Process for Preparing the
    Consolidated Financial Statements of the U.S. Government Needs Improvement,”
    October 2003


DoD IG
    DoD IG Report No. D-2004-028, “Independent Auditor’s Report on the
    Army General Fund Fiscal Year 2003 Principal Financial Statements,”
    December 3, 2003

    DoD IG Report No. D-2003-0047, “Independent Auditor’s Report on the Army
    General Fund Fiscal Year 2002 Principal Financial Statements,” January 8, 2003


Army
    U.S. Army Audit Agency Report No. AA 00-220, “Army’s General Fund
    Principal Financial Statements for Fiscal Year 1999: Financial Reporting of
    Liabilities,” April 21, 2000




                                       29
Air Force
    Air Force Audit Agency Report No. F2004-0003-FB3000, “Selected Aspects of
    Air Force Liability Reporting,” October 22, 2003

    Air Force Audit Agency Report No. F2002-0005-B05300, “Accounting for Air
    Force Liabilities, Fiscal Year 2001,” July 29, 2002

    Air Force Audit Agency Report No. 00053005, “Accounting for Air Force
    Liabilities, Fiscal Year 2000,” August 31, 2001

    Air Force Audit Agency Report No. 99053005, “Accounting for Air Force
    Liabilities, Fiscal Year 1999,” October 27, 2000




                                     30
Appendix C. Reliance on Legal Guidelines on
            Reporting Contingent Legal
            Liabilities
   DoD representations regarding contingent legal liabilities were limited because
   financial management has relied solely on counsel for reporting contingent legal
   liabilities, and counsel usually evaluates the likelihood of an unfavorable outcome
   based strictly on the American Bar Association’s “Statement of Policy Regarding
   Lawyers’ Responses to Auditors’ Requests for Information” (the ABA Policy
   Statement). The DoD Office of General Counsel contends that SFFAS No. 5, as
   amended by SFFAS No. 12, contradicts the ABA Policy Statement and that strict
   adherence to SFFAS No. 5 can potentially expose the legal posture of DoD,
   putting it at risk. The following table contrasts the differences between
   SFFAS No. 5 and the ABA Policy Statement.


                 Comparison of Accounting and Legal Guidelines


    Type of Opinion in Legal        SFFAS No. 5
     Representation Letters        (as Amended)              ABA Policy Statement


    “Probable”                   The future event is       It is extremely doubtful that
                                   likely to occur             the client will prevail

    “Reasonably Possible”      More than “Remote” but            Not Applicable
                                   less than likely

    “Remote”                   The chance of the future    It is extremely doubtful that
                               event occurring is slight     the client will not prevail

    “Unable to Express             Not Applicable             Unable to advise as
    an Opinion”                                             “Probable” or “Remote”


   DoD Office of General Counsel. It is the DoD Office of General Counsel’s
   policy, consistent with the ABA Policy Statement, to generally decline to express
   an opinion concerning a case or claim, both in terms of the possible outcome and
   the amount of liability. DoD General Counsel maintains that:

      •   Privacy and protection of the legal representation letter is at risk because
          of the susceptibility of the letter to the Freedom of Information Act
          requests.




                                         31
   •   ABA standards dictate that legal counsel assess as either “probable” or
       “remote” only in rare instances and that normally the assessment should
       be “unable to express an opinion.”

   •   Determinations in accordance with SFFAS No. 5 and OMB requirements
       are viewed as potential violations of attorney-client privilege, requiring of
       a waiver from the Secretary of Defense, and may impair the ability of
       DoD to maintain confidentiality.

   •   Estimating a dollar amount outcome of litigation is difficult because of the
       nuances of legal cases and the length of time for many of the cases.

OMB Bulletin No. 01-02 recognizes that legal counsels are to consider guidance
contained in the ABA Policy Statement when making legal representations.
However, it states that in order to satisfy management’s responsibilities under
SFFAS No. 5, the Chief Financial Officer is required to document how the
information contained in legal counsel’s response was considered in preparing the
financial statements. DoD financial management is ultimately responsible for
determining and documenting how contingent legal liabilities will be reported in
the financial statements.

The ABA Policy Statement places stringent requirements on legal counsel when
expressing judgments about pending litigation, claims, and assessments. If it is
used exclusively, it leads counsel to express opinions only when there is near-
absolute certainty; therefore, opinions of counsel are limited to “unable to
determine.” DoD General Counsel stated that if counsel is forced to choose
between the three categories, “remote” will be selected, as was the case with the
Department of Army and USACE. The policy does not, in and of itself, satisfy
the intent of reporting and disclosing contingencies. The following paragraphs
provide information on rationale and a delineation of responsibilities for specific
DoD Components.

        Department of the Army. The Army Office of General Counsel
acknowledged that they categorically limited opinions on likely outcome,
regardless of case facts or anticipated outcome. In FY 2003, the Army Office of
General Counsel did not express opinions in its legal representation letters on the
likely outcome of pending legal cases. In FY 2004, Counsel elected to classify as
“remote” all 77 cases reported in its legal representation letter. The Army Office
of General Counsel stated that they previously refrained from expressing opinions
because they did not want to reveal their legal posture. They limited opinions
because furnishing such a judgment to outside legal channels might prejudice the
Army’s position in its defense against litigation or a claim if a plaintiff obtained
case reports under the Freedom of Information Act. However, Counsel stated that
they would be willing to give a total number of “probable” or “reasonably
possible” cases, but they did not want to reveal the probability on an individual
basis.

Responsibilities for the contingent legal liability process are not clearly delineated
within the Army. It is the position of the Office of the Assistant Secretary of
Army (Financial Management and Comptroller) that the representations and the
amounts submitted for reporting and disclosure are the exclusive responsibility of


                                     32
the Army Office of General Counsel. The Army Office of General Counsel is of
the opinion that the contingent legal liability process is the primary responsibility
of the Office of the Assistant Secretary of the Army (Financial Management and
Comptroller) and the representations are the Counsel’s responsibility.

         Department of the Navy. The Navy Office of General Counsel
acknowledged that it limited its evaluations to “unable to express an opinion”
concerning the likelihood of unfavorable outcome for all pending or threatened
litigation and unasserted claims reported in FY 2004. Counsel limited opinions
based on direction from the DoD Office of General Counsel and its strict
interpretation of the ABA Policy Statement, which cautions lawyers against
placing a value on a legal claim or estimating the likely result.

The Office of the Assistant Secretary of the Navy (Financial Management and
Comptroller) relies solely on the legal representation process for reporting and
disclosing contingent legal liabilities in the Navy General Fund and Working
Capital Fund Financial Statements. Financial management stated that it is
obligated to prepare the management schedules and report contingent legal
liabilities based on opinions provided in the legal representation letters. Financial
management acknowledged that the current process creates an inability to
adequately report liabilities in the Navy financial statements.

         Department of the Air Force. Legal counsel for the Air Force stated that
they do not have any reservations about classifying cases as “probable” or
“reasonably possible”; however, they stated that circumstances for certain cases
may require an assessment of “unable to determine.” Counsel provides the legal
representation letters to auditors and submits the amounts for contingent legal
liabilities to Defense Finance and Accounting Service (DFAS) Denver for
reporting and disclosure on the financial statements. The Office of the Assistant
Secretary of the Air Force (Financial Management and Comptroller) prepares the
management schedule based solely on opinions and estimates provided in legal
letters. It did not reconcile and explain differences between the legal letters,
management schedule, and financial statements. Also, it did not review the
amounts submitted to DFAS Denver. When issues with amounts occur, DFAS
Denver works directly with counsel to resolve them. Financial management
stated that it is responsible for accounting policy and that DFAS Denver serves as
the accountants for the Air Force. Further, counsel is responsible for developing
the estimation methodologies used to derive reportable liabilities.

        U.S. Army Corps of Engineers. The USACE Office of the Chief
Counsel follows the direction of the Army Office of General Counsel’s policy to
assess all cases as “remote.” The USACE Office of the Chief Counsel stated that
all cases were assessed as “remote” irrespective of the stage of litigation or
anticipated outcome. In addition, Counsel stated that making determinations
about the possible outcome of any litigation is difficult and subjective and could
be used to demonstrate an admission of guilt on the part of the government,
further exposing the government to higher litigation risk.




                                     33
    USACE financial managers rely solely on the representations made by the Office
    of the Chief Counsel. USACE financial managers stated that they did not know
    how to estimate contingent legal liabilities; however, USACE would include
    estimates on its financial statements if DoD established an acceptable
    methodology for estimating possible liabilities.


Management Comments on the Appendix
    The Deputy Assistant Secretary of the Air Force (Financial Operations) disagreed
    with the statement “When issues with amounts occur, DFAS Denver works
    directly with counsel to resolve them.” He stated that financial management,
    DFAS, and legal representatives all worked together to resolve issues in FY 2004
    and continue to do so in FY 2005. For the full text of his comments, see the
    Management Comments section of the report.




                                       34
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
DoD Office of General Counsel

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Advanced Research Projects Agency
Director, Defense Commissary Agency
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Security Service
Director, Defense Threat Reduction Agency
Director, Missile Defense Agency
Director, National Geospatial-Intelligence Agency
Director, National Security Agency




                                          35
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        36
Office of Under Secretary of
Defense (Comptroller) Comments




                       37
Final Report
 Reference




Revised




               38
39
DoD Office of General Counsel Comments*




*
    152-page attachment has been omitted from this report because of its length. Copies will be provided upon
    request.



                                                          40
41
42
43
44
45
46
47
Final Report
 Reference




Revised




               48
     Final Report
      Reference




     Revised




49
50
Department of the Army Comments




                      51
52
Department of the Navy Comments




                       53
54
     Final Report
      Reference




     Revised




55
56
57
Department of the Air Force Comments




                        58
59
U.S. Army Corps of Engineers Comments




                       60
61
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Marvin L. Peek
Scott S. Brittingham
Denise E. Baldridge
Charles O. Egu
Kristy M. Schenck
Carl L. Adams
Cheri L. Reiser
